HHS/OIG, Audit - "Review of Excessive Payments for Inpatient Services
Processed by TrailBlazer Health Enterprises for the Period January 1, 2003,
Through December 31, 2003," (A-06-07-00055)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Excessive Payments for
Inpatient Services Processed by TrailBlazer Health Enterprises for the Period
January 1, 2003, Through December 31, 2003," (A-06-07-00055)
April 8, 2008
Complete
Text of Report is available in PDF format (842 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Of the 147 high-dollar
payments ($200,000 or more) that TrailBlazer Health Enterprises (TrailBlazer) made
to Medicare Part A providers in calendar year 2003, 11 were
overpayments, 8 of which resulted in net overpayments totaling $50,044.  For
the remaining three overpayments, providers agreed that they had submitted
incorrect claims and said that they would submit revised claims.
TrailBlazer is a fiscal intermediary serving
Medicare providers in Texas, New Mexico, and Colorado.
We recommended that TrailBlazer (1)
ensure that identified overpayments have been
recovered, (2) follow up with the providers about the three claims that had not
been revised, (3) use the results of this audit in its provider education
activities, and (4) consider identifying and recovering any additional
overpayments made for high-dollar Part A inpatient claims paid after calendar
year 2003.  TrailBlazer
agreed with our findings and
stated that providers had corrected and resubmitted 10 of the 11 claims.